Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   WASHINGTON RECEIVED
       MILLIONS IN
UNALLOWABLE BONUS PAYMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-04-14-08028
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Washington received more than $19.4 million in unallowable performance bonus payments
 under the Children’s Health Insurance Program Reauthorization Act for fiscal years 2009
 through 2012.

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid. In a previous audit of CHIPRA bonus payments in another
State (A-04-12-08014), we found millions of dollars in unallowable bonus payments; therefore,
we identified CHIPRA bonus payments as a high-risk area.

We reviewed the bonus payments that Washington received for FYs 2009 through 2012 because
preliminary analysis indicated inconsistencies between the enrollment of children in Medicaid
that Washington reported when requesting bonus payments and the enrollment reflected in the
Medicaid Statistical Information System (MSIS) maintained by the Centers for Medicare
& Medicaid Services (CMS). Washington received more than $61.2 million in bonus payments
for the FYs we reviewed.

The objective of our audit was to determine whether the bonus payments that Washington
received were allowable in accordance with Federal requirements.

BACKGROUND

CMS administers the Medicaid program at the Federal level and is the agency responsible for
determining whether a State meets the requirements to receive a bonus payment and, if so, what
the amount of a State’s bonus payment should be. CMS makes its determinations, in part, on the
basis of Medicaid enrollment information that the States provide in their requests for bonus
payments. The Washington State Health Care Authority (State agency) administers
Washington’s Medicaid program and is the agency that requested the bonus payments
Washington received for FYs 2009 through 2012 (audit period).

A State is eligible for a bonus payment if, among other requirements, it increases its current
enrollment of qualifying children (current enrollment) above the baseline enrollment of
qualifying children for a given year as specified in CMS guidance.

WHAT WE FOUND

Some of the bonus payments that Washington received for the audit period were not allowable in
accordance with Federal requirements. Most of the data used in Washington’s bonus payment
calculations was in accordance with Federal requirements. However, the State agency overstated
its FYs 2009 through 2012 current enrollment in its bonus requests to CMS because it included


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                       i
individuals who did not qualify because of their basis-of-eligibility (BOE) code. As a result,
CMS overpaid Washington $19,484,644 in bonus payments.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $19,484,644 to the Federal Government and

    •   ensure that future requests for CHIPRA bonus payments include only qualifying children
        to comply with Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings. State
agency officials said that they believed that the bonus payments received for the audit period
were allowable in accordance with Federal requirements and that the agency’s methodology for
reporting current enrollment of qualifying children was correct and complied with Federal
requirements.

The State agency said that CMS guidance does not require the use of BOE codes in determining
the current enrollment. Instead, according to the State agency, the current enrollment is
determined entirely based on the number of “qualifying children.”

OFFICE OF INSPECTOR GENERAL RESPONSE

We disagree with the State agency’s comment that its methodology for reporting current
enrollment of qualifying children is correct and that CMS guidance does not require the use of
BOE codes in determining the current enrollment. The State agency’s current enrollment
calculations did not follow the same logic and basis that CMS used to develop the baseline
enrollment. As a result, the State agency’s approach overstated current enrollment because it
included enrollment categories not reflected in CMS’s baseline enrollment.

We maintain that our findings and recommendations are correct.




Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                       ii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ...................................................................................................................... 1
                The Medicaid Program: How It Is Administered ............................................... 1
                Washington’s Medicaid Management Information System and
                  CMS’s Medicaid Statistical Information System ............................................. 1
                Bonus Payments .................................................................................................... 2

          How We Conducted This Review..................................................................................... 2

FINDINGS             ............................................................................................................................... 3

          The State Agency Did Not Calculate Current Enrollment in Accordance With
           Federal Requirements ................................................................................................... 3

          Washington Received More Than $19.4 Million in Unallowable Bonus Payments ........ 4

RECOMMENDATIONS .............................................................................................................. 4

STATE AGENCY COMMENTS AND
     OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 5

          State Agency Comments ................................................................................................... 5

          Office of Inspector General Response .............................................................................. 5

APPENDIXES

          A: Current Enrollment Calculations ................................................................................ 8

          B: Audit Scope and Methodology.................................................................................. 10

          C: Federal Requirements Related to Bonus Payments .................................................. 12

          D: State Agency Comments ........................................................................................... 14




Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                                                                               iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA) directly
affects both the Children’s Health Insurance Program and Medicaid. Under CHIPRA, Congress
appropriated $3.225 billion for qualifying States to receive performance bonus payments (bonus
payments) for Federal fiscal years (FYs) 2009 through 2013 to offset the costs of increased
enrollment of children in Medicaid. In a previous audit of CHIPRA bonus payments in another
State, 1 we found millions of dollars in unallowable bonus payments; therefore, we identified
CHIPRA bonus payments as a high-risk area.

We reviewed the bonus payments that Washington received for FYs 2009 through 2012 because
preliminary analysis indicated inconsistencies between the enrollment of children in Medicaid
that Washington reported when requesting bonus payments and the enrollment reflected in the
Medicaid Statistical Information System (MSIS) maintained by the Centers for Medicare
& Medicaid Services (CMS). Washington received more than $61.2 million in bonus payments
for the FYs we reviewed.

OBJECTIVE

Our objective was to determine whether the bonus payments that Washington received were
allowable in accordance with Federal requirements.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. Although the State has considerable flexibility in designing and operating its
Medicaid program, it must comply with applicable Federal requirements. CMS administers the
Medicaid program at the Federal level. The Washington State Health Care Authority (State
agency) administers Washington’s Medicaid program.

Washington’s Medicaid Management Information System and
CMS’s Medicaid Statistical Information System

Section 235 of the Social Security Amendments of 1972, P.L. No. 92-603, provided for
90-percent Federal financial participation (FFP) for the design, development, or installation and
75-percent FFP for the operation of eligible State mechanized claims processing and information
retrieval systems. For Medicaid purposes, the mechanized claims processing and information
retrieval system is the Medicaid Management Information System (MMIS).

1
 Alabama Received Millions in Unallowable Performance Bonus Payments Under the Children’s Health Insurance
Program Reauthorization Act (A-04-12-08014, issued August 27, 2013).


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                               1
The MMIS is an integrated group of procedures and computer processing operations
(subsystems) designed to improve Medicaid program and administrative cost controls, service to
recipients and providers, operations of claims control and computer capabilities, and
management reporting for planning and control.

Under the Balanced Budget Act of 1997, P.L. No. 105-33, States are required to submit
Medicaid eligibility and claims data to CMS through the MSIS. The purpose of the MSIS is to
collect, manage, analyze, and disseminate information on eligibility, beneficiaries, utilization,
and payment for services covered by State Medicaid programs. CMS uses MSIS data to produce
Medicaid program characteristics and utilization information. Some of the information that
States report for Medicaid-eligible individuals are date of birth, race, sex, and basis of eligibility
(BOE).

Bonus Payments

CHIPRA, P.L. No. 111-3, directly affects both the Children’s Health Insurance Program under
Title XXI of the Social Security Act (the Act) and Medicaid under Title XIX of the Act. Under
CHIPRA, qualifying States may receive bonus payments for FYs 2009 through 2013 to offset the
costs of increased enrollment of children in Medicaid. A State is eligible for a bonus payment if
it increased its current enrollment of qualifying children (current enrollment) above the baseline
enrollment of qualifying children (baseline enrollment) for a given year as specified in CMS
guidance. A State must also have implemented at least five of the Medicaid enrollment and
retention provisions specified in CHIPRA.

CMS is responsible for determining whether a State meets the requirements to receive a bonus
payment and, if so, the amount of the bonus payment. CMS makes its determinations, in part, on
the basis of Medicaid enrollment information that the State provided in its requests for bonus
payments. The State agency requested the bonus payments that Washington received for
FYs 2009 through 2012. Appendix A contains the details of Washington’s current enrollment
calculations for these FYs.

HOW WE CONDUCTED THIS REVIEW

We reviewed the bonus payments that Washington received for FYs 2009 through 2012 (audit
period), totaling $7,861,411, $20,649,662, $19,014,483, and $13,763,513, respectively. Our
review focused on verifying the accuracy of enrollment information used in the bonus payment
calculations and ensuring that the information used complied with Federal requirements. We
neither assessed the State agency’s internal control structure beyond what was necessary to meet
our objective nor reviewed the State agency’s determinations of Medicaid eligibility. Also, we
did not review whether the State agency successfully implemented at least five of the Medicaid
enrollment and retention provisions because we determined that there was a low risk of
noncompliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                           2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains the
Federal requirements related to bonus payments.

                                                  FINDINGS

Some of the bonus payments that Washington received for the audit period were not allowable in
accordance with Federal requirements. Most of the data used in Washington’s bonus payment
calculations was in accordance with Federal requirements. However, the State agency overstated
its FYs 2009 through 2012 current enrollment in its bonus requests to CMS because it included
individuals who did not qualify because of their BOE code. As a result, CMS overpaid
Washington $19,484,644 in bonus payments.

THE STATE AGENCY DID NOT CALCULATE CURRENT ENROLLMENT
IN ACCORDANCE WITH FEDERAL REQUIREMENTS

The State agency reported CHIPRA current enrollments of 602,925, 656,439, 676,973, and
689,958 for FYs 2009 through 2012, respectively. According to CMS guidance, 2 a State should
calculate CHIPRA current enrollment using the same State institutional data sources, such as the
State’s MMIS, that it uses for reporting under the MSIS.

Furthermore, the State’s current enrollment should include only individuals whom the State
identifies and reports as having a BOE of “child” in the MSIS. Specifically, CMS guidance
defines BOE codes of “child” as follows:

      •   Code 4: Child (not Child of Unemployed Adult, not Foster Care Child);

      •   Code 6: Child of Unemployed Adult (optional); and

      •   Code 8: Foster Care Child.

CMS established this guidance to ensure that States consistently use the same information and
basis (i.e., BOE codes) that CMS uses to develop States’ baseline enrollment. 3

The State agency used the same State institutional data source to calculate its current enrollment
that it used for MSIS reporting. However, the State agency did not follow CMS guidance to
include in its CHIPRA current enrollment only individuals with a BOE of “child” in the MSIS.
In addition to the above three BOE categories, the State agency incorrectly included individuals
from other BOEs, such as BOE code 2, “Blind and Disabled,” in its reports of CHIPRA current
enrollments to CMS, which inflated its current enrollment numbers.

2
    CMS, SHO Letter #09-015, CHIPRA #10, and CMS BP-Clarification3.docx, October 26, 2009.
3
 The baseline enrollment level for a State is based on a formula that considers such factors as the levels of
qualifying children under the Medicaid program and various adjustment factors that account for population growth.


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                                          3
  Had it followed Federal requirements, the State agency would have reported the correct number
  for current enrollment for FYs 2009 through 2012 as depicted in Table 1.

                                Table 1: Washington Medicaid Enrollment

              Current Enrollment 4              FY 2009       FY 2010        FY 2011        FY 2012
              State-reported number              602,925       656,439        676,973        689,958
              Correct number                     570,244       645,038        672,010        679,245
               Overstatement                      32,681        11,401          4,963         10,713

  WASHINGTON RECEIVED MORE THAN $19.4 MILLION IN
  UNALLOWABLE BONUS PAYMENTS

  CMS calculated excessive CHIPRA bonus payments to Washington because the State agency
  overstated its CHIPRA current enrollments for FYs 2009 through 2012. (See Table 1.) As a
  result, Washington received unallowable bonus payments of $5,136,424, $6,553,366,
  $2,916,476, and $4,878,378 for FYs 2009 through 2012, respectively. We recalculated the
  bonus payments using the correct CHIPRA current enrollments for these FYs and found that
  Washington should not have received a total of $19,484,644 in bonus payments for the FYs
  reviewed (Table 2).

                                   Table 2: Washington Bonus Payments

                                      FY 2009         FY 2010     FY 2011     FY 2012       Total
Bonus payment received               $7,861,411      $20,649,662 $19,014,483 $13,763,513 $61,289,069
Correct bonus payment                 2,724,987       14,096,296 16,098,007    8,885,135 41,804,425
Bonus Payment Not Allowed            $5,136,424       $6,553,366  $2,916,476  $4,878,378 $19,484,644

                                           RECOMMENDATIONS

  We recommend that the State agency:

      •   refund $19,484,644 to the Federal Government and

      •   ensure that future requests for CHIPRA bonus payments include only qualifying children
          to comply with Federal requirements.




  4
   See Appendix A, Tables 3 and 4, for a monthly detail of the State’s reported current enrollment numbers and our
  calculated current enrollment numbers.


  Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                                         4
                           STATE AGENCY COMMENTS AND
                      OFFICE OF INSPECTOR GENERAL RESPONSE

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our findings. State
agency officials said that they believed that the bonus payments received for the audit period
were allowable in accordance with Federal requirements and that the agency’s methodology for
reporting current enrollment of qualifying children was correct and complied with Federal
requirements.

The State agency said that CMS guidance does not require the use of BOE codes in determining
the current enrollment. Instead, according to the State agency, the current enrollment is
determined entirely based on the number of “qualifying children,” consistent with the statutory
definition. The State agency further said, “More specifically, qualified children are defined as
those enrolled in specific eligibility groups as well as children enrolled under a title XIX
demonstration.” The State agency referred to the following CMS guidance from BP-
Clarification3.docx, dated October 26, 2009 (the 2009 guidance):

    The calculation of the Bonus Payment for each State is intended to include all child
    enrollees in each States’ Medicaid program that meet the definition of Qualifying
    Children. In that regard, in the guidance to States we referenced a number of citations in
    the Medicaid statute which were intended to reflect the eligibility categories for which
    children might be covered.

Also, in referring to a CMS email dated December 12, 2011, the State agency acknowledged that
the “same logic and basis that was used for developing the FY 2007 baseline should be used by
each State for submitting the average monthly enrollment for children for the current fiscal year
for which the bonus payment is being determined” but stated that this subsequent guidance
should not be applied retroactively.

The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We disagree with the State agency’s comment that its methodology for reporting current
enrollment of qualifying children is correct and that CMS guidance does not require the use of
BOE codes in determining the current enrollment. The State agency’s current enrollment
calculations did not follow the same logic and basis that CMS used to develop the baseline
enrollment. As a result, the State agency’s approach overstated current enrollment because it
included enrollment categories not reflected in CMS’s baseline enrollment.

The 2009 guidance clearly stated that in reporting the current FY 2009 enrollment, States should
include a description of the data sources and the methodologies they used to appropriately
identify individuals with a BOE of “child,” and this same guidance accurately identified the BOE
codes associated with “child” as codes 4, 6, or 8. The 2009 guidance also stated, “The



Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                         5
calculation of the Bonus Payment requires establishing for each State a monthly average
unduplicated number of qualifying children enrolled in title XIX for FY 2007” (original
emphasis).

To establish the FY 2007 baseline of the unduplicated number of qualifying children,
the 2009 guidance stated:

    [W]e developed the baseline enrollment for each State using all of the “MSIS Coding
    Categories” for which States report individuals with the “Basis-Of-Eligibility” (BOE) of
    Child in their Medicaid programs. Again, the purpose was to capture every individual
    considered to be eligible as a “Child” by States under their Medicaid (title XIX)
    programs.

Furthermore, the section of the 2009 guidance that the State quoted specifically listed the
eligibility categories associated with “child.” The guidance stated:

        The MSIS BOE codes associated with “Child” that we used for developing the
        FY 2007 baseline enrollment are as follows:

        • “4 Child (not Child of Unemployed Adult, not Foster Care Child)”
        • “6 Child of Unemployed Adult (optional)”
        • “8 Foster Care Child”

The guidance clearly stated that the listed eligibility categories were “intended to reflect the
eligibility categories for which children might be covered” (emphasis added). This same section
further states:

    We recognize that the FY 2007 baseline enrollment data obtained from MSIS may not
    represent an exact one-to-one mapping for each of the above statutory eligibility
    categories. However, as discussed above, the baseline enrollment data represents all
    individuals identified and reported by each State with a BOE of “child”; we believe this
    approach appropriately addresses the intent of the statute in a way that is operationally
    feasible.

Thus, the 2009 guidance makes it clear that BOE codes 4, 6, and 8 were used to establish the
baseline enrollment numbers and that the same BOE codes were to be used to calculate the
current enrollment numbers.

In regard to the State agency’s comment that subsequent guidance should not be applied
retroactively, neither we nor CMS applied the 2009 guidance retroactively. CMS did not change
its guidance in its email dated December 12, 2011, but stated, “We will be issuing the FY 2011
Bonus Payments to States by the end of this month, but we wanted to reiterate the aspects of the
instruction as it relates to the average monthly enrollment for children metric for FY 2011, as
provided by your State, in order to ensure that the metric was developed
appropriately” (emphasis added). This same email further stated, “The same logic and basis
that was used for developing the FY 2007 baseline should be used by each State for



Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                      6
submitting the average monthly enrollment for children for the current fiscal year for
which the bonus payment is being determined” (original emphasis). In its response, the State
agency freely admitted that it included blind and disabled individuals, whom we correctly
identified as belonging to BOE code 2, in its current enrollment numbers. However, CMS
identified BOE codes 4, 6, and 8 as the appropriate codes to be used. Hence, the State agency
did not develop its metric appropriately because the State agency included individuals who did
not qualify.

After our review and consideration of the State agency’s comments, we maintain that our
findings and recommendations are correct.




Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                       7
               APPENDIX A: CURRENT ENROLLMENT CALCULATIONS

EXPLANATION OF CURRENT ENROLLMENT CALCULATION

In accordance with Federal requirements, the CHIPRA current enrollment for any given FY
should be calculated by:

    •   obtaining the number of qualifying children in every month of the FY,

    •   summing the monthly count of qualifying children for the FY, and

    •   dividing the sum for the FY by 12 to obtain the monthly average number of qualifying
        children for the FY.

STATE AGENCY’S CALCULATION OF FISCAL YEARS 2009 THROUGH 2012
CURRENT ENROLLMENT
The State agency calculated its CHIPRA current enrollments for each of the four FYs (2009
through 2012) using the same enrollment data source that it used for MSIS reporting. However,
the State agency used a different methodology from that established in CMS guidance to compile
its current enrollment. On the basis of this guidance, a State’s CHIPRA current enrollment
should include only individuals whom the State identifies and reports as a BOE of “child” when
reporting MSIS enrollment data. However, the State agency also included in its CHIPRA current
enrollment individuals who were classified as a BOE other than “child,” thus overstating its
current enrollment numbers.

                    Table 3: State Agency’s Reported Current Enrollments
                                                  Qualifying Children
    Month           FY 2009                  FY 2010           FY 2011           FY 2012
Oct                  573,625                 640,631            669,700           689,724
Nov                  575,682                 643,784            670,893           689,131
Dec                  579,861                 646,689            672,476           688,933
Jan                  585,755                 649,948            674,255           688,628
Feb                  590,441                 652,314            675,718           689,659
Mar                  597,905                 656,449            677,944           690,324
Apr                  609,204                 658,083            678,310           689,959
May                  613,558                 657,326            677,610           690,549
Jun                  618,800                 664,127            679,078           689,174
Jul                  624,130                 665,675            680,137           690,170
Aug                  630,079                 669,390            683,169           692,010
Sep                  636,054                 672,849            684,383           691,240
 Total             7,235,094               7,877,265          8,123,673         8,279,501
    Monthly
    Average
  (Total/12)         602,925                 656,439               676,973       689,958


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                     8
OFFICE OF INSPECTOR GENERAL’S CALCULATION OF
FISCAL YEARS 2009 THROUGH 2012 CURRENT ENROLLMENT
In accordance with Federal requirements, we calculated Washington’s CHIPRA current
enrollments for FYs 2010 through 2012 by having the State agency run a query on its MMIS
data and extracting only those individuals whom the State would identify and report as a BOE of
“child” (i.e., BOE codes 4, 6, and 8) when reporting MSIS enrollment. Because the State agency
was unable to extract the data from its system for FY 2009, we ran a query on the CMS
Datamarts Web site and extracted only those individuals classified as BOE codes 4, 6, and 8, the
results of which are in Table 4 below.

                         Table 4: OIG Calculated Current Enrollments

                                                  Qualifying Children
        Month          FY 2009                  FY 2010           FY 2011        FY 2012
    Oct                 552,528                 626,382           665,389         679,340
    Nov                 554,782                 629,583           666,313         678,512
    Dec                 559,067                 632,589           667,700         678,342
    Jan                 564,504                 637,531           669,335         678,239
    Feb                 569,238                 639,876           670,448         678,883
    Mar                 576,775                 644,989           672,668         679,744
    Apr                 584,794                 647,864           673,193         679,320
    May                 586,489                 649,694           672,639         679,679
    Jun                 580,898                 653,160           673,973         677,767
    Jul                 572,228                 655,373           675,005         679,697
    Aug                 570,811                 659,641           678,146         681,285
    Sep                 570,811                 663,764           679,302         680,123
     Total            6,842,925               7,740,446         8,064,111       8,150,931
       Monthly
        Average
      (Total/12)         570,244                645,038               672,010    679,245




Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                     9
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the bonus payments that the State agency received for FYs 2009 through 2012,
totaling $7,861,411, $20,649,662, $19,014,483, and $13,763,513, respectively. Our review
focused on verifying the accuracy of enrollment information used in the bonus payment
calculations and ensuring that the information used complied with Federal requirements. We
neither assessed the State agency’s internal control structure beyond what was necessary to meet
our objective nor reviewed the State agency’s determinations of Medicaid eligibility. Also, we
did not review whether the State agency successfully implemented at least five of the Medicaid
enrollment and retention provisions because we determined that there was a low risk of
noncompliance.

We performed fieldwork at the State agency offices in Olympia, Washington, from
December 2013 through March 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal requirements;

    •   held discussions with CMS financial management officials to obtain an understanding of
        the process that States should follow when requesting bonus payments;

    •   reviewed CMS’s detailed calculations 5 of Washington’s bonus payments for FYs 2009
        through 2012;

    •   verified supporting documentation for all data elements used in Washington’s bonus
        payment calculations, including baseline enrollment and projected per capita State
        Medicaid expenditures;

    •   conducted a risk assessment of the State agency’s noncompliance with Federal
        requirements;

    •   met with State agency officials to:

            o discuss the State agency’s requests for bonus payments,

            o obtain correspondence between the State agency and CMS,




5
 Appendix II of CMS, SHO Letter #09-015, CHIPRA #10, describes the data elements, processes, and
methodologies for calculating the bonus payments.


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                         10
            o understand the State agency’s methodology for determining the current
              enrollment reported in its requests for bonus payments, and

            o understand the State agency’s process for reporting MSIS enrollment data;

    •   analyzed the State agency’s documentation supporting its requests for bonus payments;

    •   reviewed the State agency’s MMIS enrollment data;

    •   reviewed Washington’s enrollment and expenditure data from the CMS MSIS State
        Summary Datamart;

    •   calculated Washington’s FYs 2009 through 2012 current enrollment;

    •   recalculated Washington’s bonus payments using correct, verified data; and

    •   discussed the results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                      11
                               APPENDIX C: FEDERAL REQUIREMENTS
                                  RELATED TO BONUS PAYMENTS

PURPOSE OF THE BONUS PAYMENTS AND
BASELINE CALCULATION METHODOLOGY

Section 2105(a)(3) of the Act states that performance bonus payments are intended to offset
additional Medicaid and Children’s Health Insurance Program child enrollment costs resulting
from enrollment and retention efforts. The payments are made to a State for a FY as a single
payment not later than the last day of the first calendar quarter of the following FY. 6 Additional
guidance provided by CMS 7 requires that payments to qualifying States be made by
December 31 of the calendar year (CY) following the end of the FY for which the criteria were
implemented. The bonus payments are provided to a State through a grant award.

Section 2105(a)(3)(C)(iii)(I) of the Act states that the baseline number of child enrollees for
FY 2009:

       is equal to the monthly average unduplicated number of qualifying children enrolled in
       the State plan under title XIX during FY 2007 increased by the population growth for
       children in that State from 2007 to 2008 (as estimated by the Bureau of the Census) plus
       4 percentage points, and further increased by the population growth for children in that
       State from 2008 to 2009 (as estimated by the Bureau of the Census) plus 4 percentage
       points …. 8

For each of FYs 2010, 2011, and 2012, the baseline number of child enrollees “is equal to the
baseline number of child enrollees for the State for the previous FY under title XIX, increased by
the population growth for children in that State from the CY in which the respective FY begins
to the succeeding CY (as estimated by the Bureau of the Census) plus 3.5 percentage points.” 9

CMS established the baseline enrollment for each State using all of the “MSIS Coding
Categories” for which States report individuals under the BOE of “child” in their Medicaid
programs. Specifically, these BOEs are identified as BOEs 4, 6, and 8. 10

CMS provided further guidance to Washington on October 26, 2009. CMS guidance states:

           We recognize that the FY 2007 baseline enrollment data obtained from MSIS may
           not represent an exact one-to-one mapping for each of the above statutory

6
    Section 2105(a)(3)(A) of the Act.
7
    CMS, SHO Letter #09-015, CHIPRA #10.
8
    Enrollment data for FY 2007 were obtained from the MSIS.
9
    Section 2105(a)(3)(C)(iii)(II) of the Act.
10
     CMS, SHO Letter #09-015, CHIPRA #10.



Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                        12
           eligibility categories. However … the baseline enrollment data represents all
           individuals identified and reported by each State with a BOE of “child;” we
           believe this approach appropriately addresses the intent of the statute in a way that
           is operationally feasible. 11

CMS GUIDANCE FOR CURRENT ENROLLMENT CALCULATION

In its guidance to Washington on October 26, 2009, CMS clarified that States should include a
description of the data sources and the methodologies they used to appropriately identify
individuals with a BOE of “child” when reporting current enrollment.

The instructions relating to the average monthly enrollment for children were reiterated in an
email from CMS to the State agency on December 12, 2011. The email stated, “The same logic
and basis that was used for developing the FY 2007 baseline should be used by each State
for submitting the average monthly enrollment for children for the current fiscal year for
which the bonus payment is being determined” (original emphasis).




11
     CMS BP-Clarification3.docx, October 26, 2009.


Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                         13
                           APPENDIX D: STATE AGENCY COMMENT S 





                                          STATE OF WASHINGTON
                                   HEALTH CARE AUTHORITY
                   626 8th Avenue, SE • P.O. Box 45502 • Olympia, Washington 98504-5502

June 26, 20 14



LoriS. Pilcher
Regional Inspector General for Audit Services
Office of Audit Services, Region IV
Office of Inspector General
U.S. Department of Health and Human Services
61 Forsyth Street SW, Suite 3T41
Atlanta, GA 30303


Dear Ms. Pilcher:

SUBJECT:           Report Number: A-04 -14-08028

The Washington State Health Care Authority (HCA) welcomes the opportunity to provi~e
comments on the recommendations contained in the draft report entitled Washington Received
More Than $19.4 Million in Unallowable Bonus Payments.

As requested in your letter dated May 15,2014, HCA is providing a statement of concurrence or
nonconcurrence to each of the reconunendations contained in the draft report.

OIG Recommendation 1: Refund $19,484,644 to the Federal Govenm1ent.

HCA Response: HCA respectfully disagrees with this recommendation. HCA believes that the
bonus payments received for the audit period :vere allowable in accordance with Federal
requirements.

OIG reports that "The State agency overstated its FYs 2009 tlu·ough 2012 current emollment in
its bonus requests to,CMS because it included individuals who did not qualify because of their
basis-of-eligibility (BOE) code."

CMS guidance 1 does not require the use of BOE codes in determining the current emollment.
Instead, the current emollment is determined entirely based on the number of "Qualifying
Children", consistent with the statutory definition.

According to CMS guidance2 , "Qualifying Children" include all children emolled in Medicaid
who meet State eligibility criteria in effect on July 1, 2008, including children covered through
CHIP-funded Medicaid expansions and children covered under section 1115 demonstrations.
1
    CMS, SHO Letter #09-0 15, CHlPRA #I 0, Appendix II(A)(2).
2
    CMS, SHO Letter #09-0 15, CHIPRA #I 0, Appendix II( A)(4).

Washington Received Millions in Un allowable Bonus P ayments (A-04-14-08028)                    14
Lori Pilcher
June 26) 2014
Page 2


More specifically, qualified children are defined as those enrolled in specific eligibility groups as
well as children enrolled under a title XIX demonstration.

On the basis of this CMS guidance, HCA determined the number of children enrolled in each of
the specifically identified eligibility groups. For example, eligibility group [1902(a)(10)(A)(i)(I)
and 1931 (b): low-income families] includes children eligible for Medicaid on the basis of receipt
of benefits under title XVI ofthe Act (that is, the Supplemental Security Income (SSI) program,
which provides benefits to blind and disabled individuals).

Accordingly, HCA properly included these qualifying "blind and disabled" children in the
current enrollment numbers. No overstatements were made, and therefore, no overpayments
were received. No refund amount is due to the Federal Government.

OIG Recommendation 2: Ensure that future requests for CHIPRA bonus payments include only
qualifying children to comply with Federal requirements.

HCA ReJponse: HCA believes that the established methodology for reporting "Current
Enrollment of Qualifying Children" is correct and complies with federal requirements.

In additional guidance3, CMS plainly states) "The calculation ofthe Bonus Payment for each
State is intended to include all child enrollees in each States' Medicaid program that meet the
definition of Qualifying Children. In that regard, in the guidance to States we referenced a
number of citations in the Medicaid statute which were intended to reflect the eligibility
categories for which children might be covered."

Again, on the basis of this CMS guidance, I-ICA determined the number of children enrolled in
each of the specifically identified eligibility groups. HCA then properly reported the current
enrollment numbers in accordance with CMS's stated intention of including all "Qualifying
Children".

The OIG draft report also cites a CMS email dated December 12, 2011. This email contains the
following statement, "The same logic and basis that was used for developing the FY 2007
baseline should be used by each State for submitting the average monthly enrollment for children
for the current fiscal year for which the bonus payment is being determined."

This email was received several years after the initial CMS guidance was provided. RCA's
Requests for Performance Bonus Payments for FY 2009, FY 2010, and FY 2011 were all
submitted to CMS prior to receipt of this email. Subsequent guidance should not be applied
retroactively.

While the email does state that the "same logic and basis" that was used for developing the FY
2007 baseline should be used for submitting the current emollment, published guidance from
CMS provided two different methodologies for determining the baseline emollment versus the
current enrollment. From the beginning, CMS recognized the limitations of using the BOE

3
    CMS BP-Ciarification3.docx, October 26, 2009, Page 2.

Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                        15
Lori Pilcher
June 26, 2014
Page 3


codes to determine the baseline enrollment. Per CMS guidance 4, "We recognize that the FY
2007 baseline enrollment data obtained from MSIS may not represent an exact one-to-one
mapping for each of the above statutory eligibility categories. However, we believe this
approach appropriately addresses the intent of the statute in a way that is operationally feasible."

Finally, this email does not provide any new guidance that BOE codes should be used in
determining the current enrollment. Instead, CMS has provided consistent guidance that the
"Current Enrollment of Qualifying Children" is defined as those children enrolled in one of
several specifically identified eligibility groups. HCA has followed this explicit guidatwe and
appropriately determined the number of children enrolled in each of these eligibility groups.

HCA has worked closely with CMS since the start of the CHIPRA performance bonus payment
program in 2009. Throughout, HCA has relied on CMS guidance to ensure that the appropriate
data was used for calculating the fiscal year bonus payments correctly.

HCA has submitted the current enrollment numbers to CMS annually with a description of the
data sources and the methodologies used. CMS has reviewed and approved each of the requests
for FYs 2009 through 2012, without raising a concern or questioning the current emollment
numbers.

HCA respectfully requests that the OIG reconsider their finding.

Sincerely,

·-~--#"J_
MaryS(nne Lindeblad, BSN, MPH
Medicaid Director




4
    CMS BP-Ciarification3 .docx, October 26, 2009, Page 3.

Washington Received Millions in Unallowable Bonus Payments (A-04-14-08028)                       16
